                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 1-00030008                                                                           Page 1 of 2



             We received information fi-om a U.S. university1that the subject: a physics professor and
      former PI on three NSF grants,3had been found to have a I11-time position at a foreign university4at
      the same time he was a full-time professor at the U.S. university. He had since lost both positions.
      The subject had initially taken 67% leave from the U.S. university for 3 years to work at the foreign
      university, but in 1997 had returned to the U.S. university ostensibly to resume full-time status there.
          ow ever,the subject continued traveling back and forth, spending most of his time away fi-om the
      U.S. university. Following an audit by the U.S. university, the subject retired in May 2000.

             As a result of the time spent by the subject at the foreign university, the U.S. university
      requested and received two no-cost extensions (NCEs) of the subject's then-current NSF grant.5
      Another NSF grant was awarded just before the subject's retirement,6 and the U.S. university
      requested and was granted a successor PI by NSF.

               We were concerned about whether, in light of his back-and-forth travels, it was appropriate
      for the subject to have been paid summer salary fiom his NSF grant. Based on information provided
      by the U.S. university and the subject, we concluded that the NSF salary payments complied with
      NSF requirements. (While NSF policy does not allow PIS to receive salary fiom grant hnds at the
      same time they are receiving salary fiom the grantee institution, the policy is silent with regard to
      income received by PIS fiom other sources, such as the foreign university.)

              We were also troubled by the subject's statement in one of his NCE requests to NSF that he
      had returned to full-time status at       in 1997. The subject later asserted that this statement was
      intended to refer only to the summer of 1997, which is untenable (he made the statement in 1998,
      and in the context it clearly referred to all future work under his NSF grant). Nevertheless, the
      subject did subsequentlyperform substantive work on the NSF grant, both and               and while at
      the foreign university, and provided a satisfactory final report to NSF (which acknowledged
      collaboration with the foreign university). In these circumstances, the subject's statement to NSF,
      while indisputably false, was insufficiently grave to warrant further action.


          Dr.
      3
      4
                 ,      ,and        . Expenditures under the       grant were not implicated in this matter.
      5
      6




                          Agent                   Attorney                  Supervisor                         AIGI

  Sign 1 date

                                                                                                           01042-2
2
     *      -k
                                        k                                          1

                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

    Case Number: 1-00030008                                                                    Page 2 of 2



                At our request, the U.S. university reviewed its audit findings and determined that the subject
         made unallowable charges to his NSF and DOE grants for (1) travel to and from the foreign
         university and (2) salaries for employees to work on a journal for which he was editor. As a result,
         the U.S. university agreed to repay $8,315.72 to NSF (because that grant was closed) and credit
         $24,026.65 to the DOE grant (which was still active, with a successor PI). The U.S. university
         indicated that it intended to endeavor to recover these funds fi-om the subject.

                 Accordingly, this case is closed.
